Untirfr States Court of Apprafe
For the Seventh Circuit
Chicago, Illinois 60604
January 29, 2021
Before

ILANA DIAMOND ROVNER, Circuit Judge
AMY J. ST. EVE, Circuit Judge

No. 17-1932
SCOTT R. DEICHSEL,
Petitioner-Appellant,
v.
LIZZIE TEGELS, Warden,
Respondent-Appellee.

Appeal from the United States District Court
for the Eastern District of Wisconsin.
No. 03-CV-1050
Lynn Adelman,

Judge.

ORDER
No judge of the court* having called for a vote on the Petition for Rehearing and
Petition for Rehearing En Banc, filed by Petitioner-Appellant on January 12, 2021, and
all of the judges on the original panel having voted to deny the same,
IT IS HEREBY ORDERED that the Petition for Rehearing and Petition for
Rehearing En Banc is DENIED.

* Chief Judge Diane S. Sykes did not participate in consideration of this petition.

Httttefr

Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted September 25,2020
Decided October 19,2020
Before

ILANA DIAMOND ROVNER, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 17-1932
SCOTT R. DEICHSEL,
Petitioner-Appellant,
v.
DON STRAHOTA,
Respondent-Appellee.

Appeal from the United States District
Court for the Eastern District of Wisconsin.
No. 03-CV-1050
Lynn Adelman,

Judge.
ORDER

Scott Deichsel seeks a certificate of appealability to challenge the district court's
denial of his petition for a writ of habeas corpus under 28 U.S.C. ยง 2254. We have
reviewed the final order of the district court, the record on appeal, and all of DeichseTs
filings in this court. But we find no substantial showing of the denial of a constitutional
right. See 28 U.S.C. ยง 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED. DeichseTs
motion for counsel, motion to amend, and all other motions likewise are DENIED.

-V

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
July 19, 2017
By the Court:
SCOTT R. DEICHSEL,
Petitioner - Appellant
No. 17-1932

v.
DON STRAHOTA, Warden,
Respondent - Appellee
'*:

>->s*

'

f Originating Case Information:
District Court No: 2:03-cv-01050-LA
Eastern District of Wisconsin
District Judge Lynn Adelman
A review of the court's docket indicates that the order dated July 11, 2017, issued in the
wrong case and, therefore, issued in error. The appellant's request for a certificate of
appealability remains pending. Accordingly, the clerk shall strike the July 11th order
from the docket.

form name: c7_Order_BTC(form ID: 178)

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Qerk
Phone:(312)435-5850
www.ca7.uscourts.gov

ORDER
July 11, 2017
By the Court:
SCOTT R. DEICHSEL,
Petitioner - Appellant
No. 17-1932

v.
DON STRAHOTA, Warden,
Respondent - Appellee

Originating Case Information:
District Court No: 2:03-cv-01050-LA
Eastern District of Wisconsin
District Judge Lynn Adelman
Upon consideration of the PRO SE MOTION/APPLICATION FOR CERTIFICATE OF
APPEALABILITY, filed on July 05, 2017, by the pro se appellant,
IT IS ORDERED that the motion is GRANTED to the extent that the appellant may file
only one copy of his opening brief and any separate appendix. The appellant, however,
is reminded of his obligation to serve opposing counsel with a copy of all papers filed
with the court.

form name: c7_Order_BTC(form ID: 178)

